                             Office of Inspector General
                            Corporation for National and
                                     Community Service




             AUDIT OF THE
     CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE’S
        NATIONAL SERVICE TRUST
   SCHEDULE OF FISCAL 2006 BUDGETARY
      RESOURCES AND OBLIGATIONS

           Audit Report Number 07- 03




                     Prepared by:

              COTTON & COMPANY LLP
             635 Slaters Lane, Fourth Floor
               Alexandria, Virginia 22314




This report was issued to Corporation management on November 15, 2006.
                                     ~xff~"*L &
                                     COMMUNITY
                                     SERVICE-
                           OFFICEOF INSPECTOR
                                            GENERAL
                                         November 15,2006


TO:            David Eisner
               Chief Executive Officer

FROM:          Robert Shadowens
               Deputy Inspector G


SUBJECT:      National Service Trust Schedule of Fiscal Year 2006 Budgetary Resources and
              Obligations, OIG Report No. 07-03

Attached is the Independent Auditor's Report on the National Service Trust Schedule of Fiscal
Year 2006 Budgetary Resources and Obligations (Schedule). We contracted with the
independent certified public accounting fm of Cotton & Company to audit the financial
statements of the Corporation for National and Community Service as of September 30, 2006,
and for the year then ended. The contract required that the audit be performed in accordance
with generally accepted government auditing standards.

In its audit, Cotton & Company found that the Schedule presents fairly, in all material respects,
the Trust's budgetary resources and obligations for the year ended September 30,2006.

Cotton & Company is responsible for the attached auditor's report, dated November 13, 2006,
and the conclusion expressed therein. The Office of Inspector General does not express an
opinion on the Schedule.


Attachment

cc:
Nicola Goren, Chief of Staff
Frank Trinity, General Counsel
Jerry Bridges, Chief Financial Officer
William Anderson, Deputy CFO for Financial Management
Sherry Wright, Audit Resolution Coordinator




                      1201 New York Avenue, NW* Suite 830,Washington, DC 20525
                                         *                    *
                         202-606-9390 Hotline: 800-452-8210 www.cncsig.gov
                          Senior Cornr   * AmeriCornr   learn and Serve America
Office of Inspector General
Corporation for National and Community Service


                             INDEPENDENT AUDITORS’ REPORT


We have audited the accompanying National Service Trust Schedule of Fiscal Year 2006
Budgetary Resources and Obligations of the Corporation for National and Community
Service (Corporation) for the year ended September 30, 2006. This schedule is the
responsibility of Corporation management. Our responsibility is to express an opinion on
this schedule based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and standards applicable to financial statement audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain reasonable assurance
that the schedule of budgetary resources and obligations is free of material misstatement. An
audit includes examining, on a test basis, evidence supporting amounts and disclosures in the
schedule of budgetary resources and obligations. An audit also includes assessing
accounting principles used and significant estimates made by management, as well as
evaluating overall schedule presentation. We believe that our audit provides a reasonable
basis for our opinion.

The accompanying schedule of budgetary resources and obligations was prepared for the
purpose of complying with provisions of the Strengthen AmeriCorps Program Act (Public
Law 108-45), as discussed in Note A, and is not intended to be a presentation in conformity
with accounting principles generally accepted in the United States of America.

In our opinion, the National Service Trust Schedule of Fiscal Year 2006 Budgetary
Resources and Obligations referred to above presents fairly, in all material respects,
budgetary resources and obligations for the year ended September 30, 2006, on the
accounting basis described in Note A.

In accordance with Government Auditing Standards, we have also issued our reports, dated
November 13, 2006, on our consideration of the Corporation’s internal control over financial
reporting and on our tests of its compliance with provisions of laws and regulations. Our
reports on internal control and compliance are an integral part of an audit conducted in
accordance with Government Auditing Standards and should be read in conjunction with this
report in considering the results of our audit.
This report is intended solely for the information and use of the United States Congress,
President, Director of the Office of Management and Budget, Comptroller General of the
United States, Corporation, and Inspector General. It is not intended for, and should not be
used by, anyone other than these specific parties.


COTTON & COMPANY LLP



Alan Rosenthal, CPA
Partner


November 13, 2006
Alexandria, Virginia
                              Corporation for National and Community Service
                                           National Service Trust
                            Schedule of Trust Obligations as of September 30,2006


Resources
  Trust Cash and Investments (net of receivables not available for      $   454,431,228
  Trust Reserve (not available for obligation)                               (39,767,000)
Total Resources                                                                             $   414,664,228

Unliquidated Obligations
  President's Freedom Scholarshios
  Education Awards
  Interest Forbearance
Total Unliquidated Obligations

Commitments
  Education Awards
  Interest Forbearance
Total Commitments

Funds Available for Obligation at Septer




                              Corporation for National and Community Service
                                          National Service Trust
                          Schedule of Budgetary Resources as of September 30,2006


Funds Available for Obligation a t October 1,2005                                           $     5,390,328
Budgetary Resources
  Appropriations
    Fiscal 2006 Appropriation (net of rescissions)
    Transfers in of Program Funds
        Subtotal
  Deobligaiions
    Deobligation of 2005 President's Freedom Scholarships                     2,012,000
    Deobligation of Expired Member Positions                                 11,772,853
       Subtotal
   Less: 2006 Trust Reserve
Total Budgetary Resources

Funds Obligated in Fiscal 2006
  Education Awards
  Interest Forbearance
  2006 President's Freedom Scholarships
Total 2006 Obligations

Commitments
  Education Awards
  Interest Forbearance
Total Commitments

Funds Available for Obligation at September 30,2006                                         $   25,389.810
NOTES TO THE SCHEDULES

A. Basis of Accounting

The Schedule of Budgetary Resources and Schedule of Obligations as of September 30,
2006, have been prepared from the books and records of the Corporation in accordance
with the Strengthen AmeriCorps Program Act (Public Law 108-45,42 USC 8 12605) for
the period commencing October 1,2005 and ending September 30,2006.

The activities of the Trust are funded through the Departments of Labor, Health and
Human Services, and Education, and Related Agencies bill, which funds National and
Community Service Act programs. Appropriations are provided on a no-year basis for
the Trust, a fund within the Corporation used to provide education awards and interest
forbearance to eligible participants. Trust appropriations do not expire with the passage
of time and are retained by the Corporation in the Trust until used for eligible purposes.

The Trust provides awards for AmeriCorps members serving in approved national service
positions under AmeriCorps*State and National, AmeriCorps*NCCC, and
AmeriCorps*VISTA, as well as for the AmeriCorps Education Award Program, where
sponsoring organizations are responsible for providing member subsistence and other
costs, and the Corporation provides an education award and a small amount for
administrative costs.

Funds from the Trust may be expended for the purpose of providing an education award
or interest forbearance payment and must always be paid directly to a qualified institution
(college, university, or other approved educational institution, or a lending institution
holding an existing student loan) as designated by the participant, as well as for payments
under the President's Freedom Scholarship Program.

The recognition of budgetary accounting transactions is essential for compliance with
legal
  - constraints and controls over the use of Federal funds. Budgetary accounting .
principles are designed to recognize the obligation of funds accordingt o legal
requirements, which in many cases is prior to the occurrence of an accrual-based
transaction.

The Strengthen AmeriCorps Program Act directs that, beginning with fiscal 2003, Trust
obligations be recorded at the time the Corporation enters into an enforceable agreement
withan individual participant to serve in abrogram carried out under subtitle E of title I
of the National and Community Service Act of 1990 (42 USC § 12611 et seq.), or title I
of the Domestic Volunteer Service Act of 1973 (42 USC 4951 et seq.), or awards a
grant to (or enters into a contract or cooperative agreement with) an entity to carry out a
program for which such a position may be approved under section 123 of the Act (42
USC 12573). The Strengthen AmeriCorps Program Act also directs that the
obligational amount be based on the estimated value of the education benefit, discounted
for the estimated enrollment, earning and usage rates, and the time value of money.
For fiscal 2006, the Corporation used the following assumptions to calculate Trust
obligations and budgetary needs: full value of the education award, 100 percent
enrollment rate, 80 percent earning rate, and 80 percent usage rate. Programs have up to
two years after award to enroll members in positions. Funds related to positions awarded
to programs but not filled are periodically deobligated and become available for award
for new program activities. During fiscal 2006, the Corporation deobligated $1 1.773
million.

B. Trust Appropriations for Program Year 2006

On December 30,2005, the President signed into law the Departments of Labor, Health
and Human Services, and Education, and Related Agencies Appropriations Act, 2006
(P.L. 109-149) ("the Act). Under the Act, the Corporation must transfer "not less than"
$138.600 million to the National Service Trust (net of the one percent government-wide
rescission included in the Department of Defense Appropriations Act, 2006 (P.L. 109-
148)). The Act also authorizes the Corporation to transfer additional amounts from
subtitle C program funds to the National Service Trust if "necessary to support the
activities of national service participants." The Corporation transferred $16.268 million
to the Trust under this provision in fiscal 2006.

C. Trust Reserve

As required by the Strengthen AmeriCorps Program Act, in fiscal 2006 the Corporation
set aside in reserve a portion of the funds appropriated to the Trust in the event that its
estimates used to calculate obligational amounts for education awards prove to be too
low. As of September 30,20016, $6.930 million of the amount originaily appropriated to
the Trust in 2006 had been set aside for this reserve. The total amount held in reserve
under this provision was $39.767 million as of September 30,2006.

D. Trust Awards

Since the Corporation's inception in 1994 AmeriCorps members have earned over $1.247
billion in education awards. The Corporation has made $778.5 17 million in payments to
educational institutions and student loan holders on these awards. In addition, the
Corporation has made $27.914 million in interest forbearance payments since the
program's inception. Approximately $85.898 million in education awards earned had
expired without being used as of September 30,2006.
